Report No. D-2008-075         April 7, 2008




Commercial Solicitation of Military Personnel
          on DoD Installations
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFDCB                 Armed Forces Disciplinary Control Board
CAC                   Common Access Card
GAO                   Government Accountability Office
NAIC                  National Association of Insurance Commissioners
NLSO                  Naval Legal Service Office
NSGL                  Naval Station Great Lakes
PL                    Public Law
PSAD                  Personnel Support Activity Detachment
RLSO                  Region Legal Service Office
SEC                   Securities and Exchange Commission
SGLI                  Servicemembers’ Group Life Insurance
---------------




                                       INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704

                                                                                    April 7, 2008

       MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                        AND READINESS
                      COMMANDANT OF THE MARINE CORPS
                      ASSISTANT SECRETARY OF THE AIR FORCE
                        (FINANCIAL MANAGEMENT AND COMPTROLLER)
                      NAVAL INSPECTOR GENERAL
                      AUDITOR GENERAL, DEPARTMENT OF THE ARMY

       SUBJECT: Report on Commercial Solicitation of Military PersOlmel on DoD
                Installations (Report No. D-2008-075)


              We are providing this report for review and comment. The Commanding General,
       U.S. Army Training and Doctrine Command did not respond to the draft report; however,
       we considered management COlmnents from the Under Secretary of Defense for Personnel
       and Readiness, the Department of the Navy, and the Department ofthe Air Force when
       preparing the final report.

              DoD Directive 7650.3 requires that all recommendations be resolved promptly.
       Therefore, we request that the Commanding General, U.S. Army Training and Doctrine
       Command provide comments on Recommendation A.2. by May 7,2008.

               If possible, please send management comments in electronic format (Adobe
       Acrobat file only) to AUDROS@dodig.mil. Copies of the management comments must
       contain the actual signature of the authorizing official. We cannot accept the I Signed I
       symbol in place of the actual signature. If you arrange to send classified comments
       electronically, they must be sent over the SECRET Internet Protocol Router Network
       (SIPRNET).

               We appreciate the courtesies extended to the staff. Questions should be directed
       to Mr. Thomas S. Bartoszek at (703) 604-9619 (DSN 664-9619) or Mr. Robert E.
       Schonewolf at (215) 737-3886 (DSN 444-3886). See Appendix C for the report
       distribution. The team members are listed inside the back cover.




                                        ~
                                                 -I"~".
                                        . ' .'ltD*.       nJt
                                                    "' }a1!~
                                           obert F. Prinzbach II
                                          Acting Assistant Inspector General
                                          Readiness and Operations Support
               Department of Defense Office of Inspector General
Report No. D-2008-075                                                        April 7, 2008
   (Project No. D2007-D000LD-0131.000)

 Commercial Solicitation of Military Personnel on DoD Installations

                                 Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are involved in managing and preventing inappropriate personal commercial solicitations
on DoD installations and personnel responsible for providing financial training to
military personnel should read this report.

Background. Public Law 109-290, “Military Personnel Financial Services Protection
Act,” September 29, 2006, section 14, directs the DoD Inspector General to conduct a
study on the impact of the reforms included in this Act and of DoD Instruction 1344.07,
“Personal Commercial Solicitation on DoD Installations,” March 30, 2006, on the quality
and suitability of sales of securities and insurance products marketed or otherwise offered
to members of the Armed Forces.

Results. The reforms contained in Public Law 109-290 and the impact of revised DoD
Instruction 1344.07 have been partially effective in reducing commercial solicitations of
inappropriate life insurance products to military personnel by sales agents on the DoD
installations visited. The Military Services are providing personal financial readiness
training. However, commercial solicitations and sales of inappropriate life insurance
products are occurring off base. As a result, junior enlisted Service members are still
purchasing high-cost life insurance products that are considered inappropriate and may
threaten their financial stability (Finding A).

The Navy must take additional steps in protecting junior enlisted naval personnel at
Naval Station Great Lakes from the sale of inappropriate life insurance products and
dishonest and predatory sales practices. Problems identified in 2005 and 2006 with
inappropriate sales of life insurance products continue. As a result, junior enlisted
personnel were transported off post to a financial planning agency and persuaded to sign
up for supplemental life insurance products that are considered inappropriate. In
addition, unauthorized access by financial planning agency employees to MyPay, a DoD
information system, subjects the information contained on the system to undue risk of
alteration and compromise. Junior enlisted sailors could be hurt financially by having
allotments taken from their pay for inappropriate life insurance products (Finding B).

See the Findings section of the report for the detailed recommendations.

Management Comments and Audit Response. A draft of this report was issued on
February 6, 2008. The Deputy Under Secretary of Defense for Military Community and
Family Policy responded on behalf of the Under Secretary of Defense for Personnel and
Readiness. She concurred with recommendations stating her office will work with the
appropriate offices to incorporate material that will help Service members identify
inappropriate life insurance practices and products. Additionally, she stated a wealth of
material is available online at Service portals and on the web site of the National
Association of Insurance Commissioners. Further, she cited current policy directing
Armed Forces Disciplinary Control Boards in all geographical areas in which grounds for
withdrawal action have occurred to consider all applicable information and take action
the Boards deem appropriate. Violations that occur off-base are being handled
appropriately by the Board and the State commissioners. In addition, she stated that the
Defense Department will reiterate the need for the Services to ensure the State insurance
commissioners are informed of inappropriate practices targeting military personnel off-
base as well as including this information in the quarterly Personal Commercial
Solicitation Report.

The Acting Assistant Secretary of the Navy (Manpower and Reserve Affairs) concurred
with the recommendations contained in the draft report. She stated that the Navy revised
the Navy Personal Financial Management Standardized Curriculum in November 2007 to
add consumer awareness training focused on deterring, detecting, and defending against
consumer fraud. As a critical part of the training program, the Navy included the
Consumer Action Handbook published by the Federal Trade Commission. The Navy
distributed the new curriculum to Navy Fleet and Family Support Centers, and to Navy
training school commands. Also, the Recruit Training Command’s legal department
incorporated a Recruit Liberty orientation lecture in Recruit Training Center’s standard
operating procedures. The Recruit Training Command legal department provided
additional formal training to the Recruit Division Commanders addressing predatory
lending and other deceptive sales practices involving insurance, investments, and
solicitation of “MyPay” information.

The Acting Assistant Secretary of the Navy (Manpower and Reserve Affairs) further
stated that the Navy made the discussion of inappropriate commercial solicitations and
business practices an agenda item at the Naval Station Great Lakes (NSGL) Monthly
Host/Tenant Installation meeting. Further, she indicated that Region Legal Service
Office Midwest contacted the Illinois Division of Insurance in August 2007 and will
continue to contact the Division as the need arises. Also, persons affiliated with financial
products will no longer be eligible for commercial solicitation permits.

Responding for the Marine Corps, the Acting Assistant Secretary of the Navy
(Manpower and Reserve Affairs) indicated that the Personal Financial Management
Program training curriculum includes a module titled “Your Insurance Needs.”

The Air Force Assistant Deputy Chief of Staff for Manpower and Personnel concurred
with the recommendation, stating that the instructors for basic training are educating
trainees on unscrupulous insurance sales practices under the current lesson plan and will
cover these practices in the new Financial Management Lesson (and Basic Trainee Study
Guide) as part of the expanded 8.5-week program beginning in November 2008. The
lesson will discuss abusive insurance and investment practices and safeguards that exist
to help our Service members. In addition, the Assistant Deputy Chief of Staff,
Manpower and Personnel stated that the Technical Training schools have an Airmen and
Family Readiness Center with a Personal Financial Manager who has for years included
in the personal financial management lessons information on unscrupulous sales tactics
related to insurance and securities. Also, Air Education and Training Command
periodically reviews lesson plans to ensure they remain consistent with Air Force and
DoD guidance.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.


                                             ii
Audit Response. The management comments we received are responsive. Actions
taken and proposed by the Office of the Under Secretary of Defense, the Department of
the Navy, and the Department of the Air Force satisfy the intent of our recommendations.
However, we request that the Commanding General, U. S. Army Training and Doctrine
Command provide comments on the final report by May 7, 2008.




                                           iii
Table of Contents

Executive Summary

Background                                                                         1

Objectives                                                                         2

Review of Internal Controls                                                        3

Findings
     A. Improvements in Commercial Solicitation of Military Personnel on
           DoD Installations                                                       4
     B. Inappropriate Life Insurance Solicitations at Naval Station Great Lakes   15

Appendixes
     A. Scope, Methodology, and Prior Coverage                                    25
     B. Prohibited Solicitation Practices on Base                                 27
     C. Report Distribution                                                       29

Management Comments
     Office of the Under Secretary of Defense for Personnel and Readiness         31
     Department of the Navy                                                       33
     Department of the Air Force                                                  37
Background
    Public Law 109-290, “Military Personnel Financial Services Protection Act.”
    We conducted this audit as required by Public Law 109-290 (P.L. 109-290),
    “Military Personnel Financial Services Protection Act,” September 29, 2006,
    section 14. P.L. 109-290 requires a study and report by the Inspector General of
    the DoD.

           “(a) STUDY.—The Inspector General of the DoD shall conduct a study
           on the impact of DoD Instruction 1344.07 (as in effect on the date of
           enactment of this Act) and the reforms included in this Act on the quality
           and suitability of sales of securities and insurance products marketed or
           otherwise offered to members of the Armed Forces.

           (b) REPORTS.—Not later than 12 months after the date of enactment of
           this Act, the Inspector General of the DoD shall submit an initial report on
           the results of the study conducted under subsection (a) to the Committee
           on Banking, Housing, and Urban Affairs of the Senate and the Committee
           on Financial Services of the House of Representatives, and shall submit
           followup reports to those committees on December 31, 2008 and
           December 31, 2010.”

    Congress enacted P.L. 109-290 to protect members of the Armed Forces from
    unscrupulous practices regarding sales of insurance, financial, and investment
    products. The congressional findings section of the law stated that the members of
    the Armed Forces perform great sacrifices in protecting our Nation. The intent of
    Congress was to ensure that Service members are offered first-rate financial
    products. Congress found that financial services companies offered members of the
    Armed Forces high-cost securities and life insurance products and engaged in
    abusive and misleading sales practices. Such practices included the mutual fund
    contractual plan and life insurance products being marketed as investments. The
    mutual fund contractual plan charges a 50-percent sales commission on the first year
    of contributions, whereas an average commission on other securities products is less
    than 6 percent. The mutual fund contractual plans largely disappeared from the
    civilian market in the 1980s because of this excessive sales charge. Congress also
    found that certain life insurance products being offered to members of the Armed
    Forces are improperly marketed as investment products; these products often
    provide minimal death benefits in exchange for excessive premiums that are front-
    loaded in the first few years, making them inappropriate for most military personnel.

    State Government Role and the National Association of Insurance
    Commissioners. State Government entities are the primary regulators of
    insurance companies and agents. When establishing operations, an insurance
    company must obtain a charter and license to write insurance policies. The State
    that issues the license becomes the company’s State of domicile or legal
    residence. Because the insurance company may market products in multiple
    States, the sales are overseen by multiple State regulatory bodies. However, the
    financial solvency of each insurance company is primarily overseen by the
    company’s State of domicile. Some insurance companies market their products
    using their own sales force; others use agents employed by independent firms.




                                        1
    The State insurance regulators oversee the insurance companies and agents in
    several ways, including reviewing and approving products for sale and examining
    the operations of companies to ensure their financial soundness or proper market
    conduct. Although each State has its own insurance regulations and laws, the
    National Association of Insurance Commissioners (NAIC) was created in 1871 to
    coordinate the regulation of multi-State insurers. NAIC consists of insurance
    regulators from the 50 States, the District of Columbia, and the 5 U.S. territories.
    NAIC provides a national forum for addressing and resolving major insurance
    issues and for allowing regulators to develop consistent policies on the regulation
    of insurance when consistency is deemed appropriate. NAIC has a close working
    relationship and consulted with the Office of the Under Secretary of Defense for
    Personnel and Readiness on a model regulation that will set forth standards to
    cover commercial solicitation both on and off military installations. The NAIC
    report to Congress, “Life Insurance Sales to Members of the Armed Forces,”
    September 28, 2007, identified 15 States that have enacted legislation and
    accepted the model regulation.
    Securities and Exchange Commission. The Securities and Exchange
    Commission (SEC) is a Government agency whose mission is to protect
    investors; maintain fair, orderly, and efficient markets; and facilitate capital
    formation. Also, the Commission focuses on promoting the disclosure of
    important market-related information, maintaining fair dealing, and protecting
    against fraud. In addition, the SEC oversees key participants in the securities
    world, including securities exchanges, securities brokers and dealers, investment
    advisors, and mutual funds.

    P. L. 109-290 requires the SEC to issue a report to Congress on refunds, sales
    practices, and revenues from periodic payment plans no later than 6 months after
    enactment. According to the Investment Company Act of 1940, section 2 (a)
    (27), periodic payment plans are any certificate, investment contract or other
    security providing for a series of periodic payments by the holder, and
    representing an undivided interest in certain specified securities or in a unit or
    fund of securities purchased wholly or partly with the proceeds of such payments.

    Servicemembers’ Group Life Insurance. All military members are
    automatically enrolled in the Servicemembers’ Group Life Insurance (SGLI)
    program upon joining the Armed Forces. SGLI is a federally sponsored program
    that for $28 a month provides $400,000 of group term life insurance coverage,
    plus a mandatory $1 per month for traumatic injury protection coverage. If the
    Service member wants less life insurance, the cost is $3.50 per $50,000 in
    coverage. In addition, at no cost to Service members, in the event of their death
    while on active duty, members’ beneficiaries receive $100,000.


Objectives
    The overall audit objective was to review the effects of DoD Instruction 1344.07,
    “Personal Commercial Solicitation on DoD Installations,” and the reforms
    included in Public Law 109-290, “Military Personnel Financial Services
    Protection Act,” on the quality and suitability of sales of securities and insurance
    products marketed to members of the Armed Forces.



                                          2
Review of Internal Controls
     We identified a material internal control weakness for Naval Station Great Lakes
     (NSGL) in the supervision and enforcement of commercial solicitation activities
     and practices on base, as defined by DoD Instruction 5010.40, “Managers’
     Internal Control (MIC) Program Procedures,” January 4, 2006. The NSGL did
     not have effective communication channels or internal controls to prevent
     inappropriate solicitations for unneeded insurance products from occurring on the
     installation. Recommendations B.1., B.2., and B.3., if implemented, will improve
     NSGL oversight of personal commercial solicitations of Service members on and
     off the installation and boost consumer awareness of inappropriate life insurance
     sales practices and products. A copy of this report will be provided to the senior
     official responsible for internal controls at NSGL.




                                         3
           A. Improvements in Commercial Solicitation of
           Military Personnel on DoD Installations
           The reforms of P.L. 109-290 and the impact of revised DoD
           Instruction 1344.07 have been partially effective in reducing commercial
           solicitations of inappropriate life insurance products to military personnel
           by sales agents on the DoD installations visited. The Military Services are
           providing personal financial readiness training. However, commercial
           solicitations and sales of inappropriate life insurance products are
           occurring off base because consumer awareness training was not adequate
           for military personnel to identify inappropriate life insurance sales
           practices and products. In addition junior enlisted Service members,
           facilitated by insurance agents, are starting life insurance allotments
           through the MyPay system, circumventing many of the safeguards
           established for on-base commercial solicitations to buy supplemental life
           insurance. As a result, junior enlisted Service members are still
           purchasing high-cost life insurance products that are considered
           inappropriate and may threaten their financial stability.


Public Law Reforms
    The reforms included in P.L. 109-290 regarding the quality and suitability of sales
    of insurance products marketed to members of the Armed Forces have been
    implemented. The reforms include improving life insurance product standards,
    developing military protection standards, and the identifying and reporting of
    barred insurance companies and agents. In addition, it prohibits periodic payment
    plans.

    Improving Life Insurance Product Standards. P.L. 109-290 states that NAIC
    should conduct a study and report to Congress on ways to improve the quality of,
    and sale of, life insurance products sold on military installations and the
    compliance with State law of the marketing of life insurance products to Service
    members. NAIC issued a report “Life Insurance Sales to Members of the Armed
    Forces,” to Congress on March 29, 2007. The NAIC report analyzes the deceptive
    and improper sales practices uncovered by the Government Accountability
    Office (GAO), Department of Justice, DoD, SEC, and State insurance regulators.
    The report also discusses coordination between NAIC and DoD. The coordination
    efforts resulted in NAIC developing a planned database to track and share actions
    taken against life insurance agents soliciting on military installations, a Web site
    link and a brochure providing information that Service members should consider
    when purchasing life insurance and related issues, and the addition of a complaint
    code in the NAIC complaint database to track complaints by Service members.

    Developing Military Personnel Protection Standards. In response to the
    P.L. 109-290 requirement to develop life insurance standards to protect Service
    members, NAIC tasked its Military Sales Working Group to write a model
    regulation for implementation within each State, the District of Columbia, and
    Puerto Rico. The working group was appointed December 2006 to address the
    directives set forth in P.L. 109-290 pertaining to NAIC. In consultation with the
    Office of the Under Secretary of Defense for Personnel and Readiness, the


                                         4
working group drafted and NAIC unanimously adopted the Military Sales
Practices Model Regulation (the model regulation) on June 4, 2007.

The purpose of the model regulation is to identify standards to protect active-duty
Service members of the U.S. Armed Forces from dishonest and predatory insurance
sales practices. The model regulation identifies acts or practices by an insurer or
insurance producer that are declared to be false, misleading, deceptive, or unfair.
See Appendix B for solicitation practices the model regulation prohibits on base.

Each State’s regulatory insurance commission must adopt the model regulation to
enforce it. The State’s insurance commission sets its own fines for violation of the
regulation and establishes criteria for the revocation of State insurance licenses and
other related penalties. In its second report to Congress, “Life Insurance Sales to
Members of the Armed Forces,” September 28, 2007, NAIC gave the status of the
States’ efforts to implement the model regulation. The report identified 15 States
that have enacted legislation and accepted the model regulation. In addition, the
report addresses an educational outreach project and the on-line reporting system.
Further, NAIC, in conjunction with DoD, has developed a “red flag” advisory to
alert members of the Armed Forces to deceptive life insurance marketing and sales
practices typically used by agents selling life insurance policies as an investment
or savings plan. The advisory, a one-page message, will be forwarded to military
installations. The advisory encourages Service members who have encountered
deceptive sales practices to contact their Financial Readiness Office or State
insurance regulator for assistance.

Also, on September 25, 2007, NAIC implemented a new Web-based Military
Sales Online Reporting System to provide a centralized system to receive reports
from insurers, Federal agencies, and State entities regarding disciplinary actions
taken against persons that solicit or sell life insurance products on U.S. military
installations anywhere in the world. The information collected by the Military
Sales Online Reporting System will be available to all State insurance
departments and the DoD.

Reporting Barred Insurance Companies and Agents. DoD already addressed
this reform with the development of the Personal Commercial Solicitation Report in
May 2005. The military installations report up their chain of command when
individuals and companies have had their privileges to solicit on base suspended.
The Services’ headquarters then report the information to the Principal Deputy
Under Secretary of Defense for Personnel and Readiness for inclusion in the
Personal Commercial Solicitation Report. This report identifies the company and
or agents barred, the reason for debarment, and the length and location of
debarment. The Principal Deputy monitors and posts the report on the
Commanders Page quarterly at www.commanderspage.com, giving all installations
information on barred companies and agents. The Commanders Page is a Web site
for news and information pertaining to personnel and readiness for flag and general
officers.

According to the Personal Commercial Solicitation Report, in FY 2007 four
insurance or financial companies were banned from military installations
worldwide and two companies were placed off-limits to Fort Benning and Fort
Jackson soldiers. In addition, five agents banned as a result of our review were
added to the report. Four agents had their commercial solicitation permits
rescinded at NSGL, and one agent was banned from Fort Jackson. All issues
pertaining to NSGL are in Finding B.

                                      5
     Prohibiting Periodic Payment Plans. P.L. 109-290, section 4, prohibits future
     sales of periodic payment plans as of October 29, 2006. In addition, it required
     the SEC to issue a report to Congress on refunds, sales practices, and revenues
     from periodic payment plans no later than 6 months after enactment of the Act.
     The SEC issued a report in March 2007 stating that only one company offered
     voluntary refunds. The SEC also reported that broker-dealers selling periodic
     payment plans during the report period (2002 to 2006) generated approximately
     $192 million in revenue. The SEC found that the number of sponsors offering
     periodic payment plans has dropped significantly since June 1970, when
     approximately 80 firms sponsored the plans; at the time of the 2007 report, only 9
     were in operation. The report cited several problems with sales to military
     members, including misstatements regarding periodic payment plans,
     misstatements regarding the wealth-building potential of certain other securities
     products, and the marketing of periodic payment plans to low-ranking personnel
     who might not be able to maintain the payments.

     The SEC has reported that eight of the nine companies had ceased selling periodic
     payment plans prior to the sales prohibition. The SEC report also stated that the
     problems associated with periodic payment plans are no longer a significant issue
     because of statutory prohibition. The SEC has a comprehensive program to address
     illegal and abusive practices targeting military personnel. The program includes
     enforcement, examination, coordination with DoD and the National Association of
     Securities Dealers, and investor education and other outreach activity.

     We found no evidence of current sales of periodic payment plans at any of the six
     sites visited during the audit. The sites included Fort Benning, Fort Jackson,
     Naval Station Great Lakes, Marine Corps Base Camp Lejeune, Lackland Air
     Force Base, and Keesler Air Force Base.


DoD and Service Policies
     DoD revised and reissued DoD Instruction 1344.07,“Personal Commercial
     Solicitation on DoD Installations,” on March 30, 2006, and the Services have finalized
     or are in the process of finalizing their supplemental guidance to the DoD Instruction.

     DoD Instruction. DoD Instruction 1344.07,“Personal Commercial Solicitation on
     DoD Installations,” March 30, 2006, is the guidance on policy and procedures for
     personal commercial solicitations on DoD installations. It is DoD policy to
     safeguard and promote the welfare of DoD personnel as consumers by setting
     forth a uniform approach to the conduct of all personal commercial solicitation
     and sales to them by dealers and their agents. The Instruction defines personal
     commercial solicitation as personal contact, to include meetings, meals, or
     telecommunications contact, for the purpose of seeking private business or trade.
     The Instruction establishes policies and procedures for personal commercial
     solicitation on DoD installations. These policies require that the solicitor be duly
     licensed to sell his product, have an appointment with the individual to be
     solicited, and provide the personal commercial solicitation evaluation form and a
     written reminder that free legal advice is available from the Office of the Staff
     Judge Advocate. The Instruction also requires installation commanders to report
     concerns or complaints involving the quality or suitability of financial products,



                                           6
as well as concerns or complaints involving marketing methods used to sell these
products, to the appropriate State and Federal regulatory authorities.

The Instruction describes the use of the allotment of pay system. For personnel in
pay grades E-4 and below, in order to obtain financial counseling, at least
7 calendar days shall elapse between the signing of a life insurance application and
the certification of a military pay allotment for any supplemental commercial life
insurance. Installation Finance Officers are responsible for ensuring this 7-day
cooling-off period is monitored and enforced. The purchaser’s commanding
officer may grant a waiver of the 7-day cooling-off period requirement for good
cause, such as the purchaser’s imminent deployment or permanent change of
station. The Instruction also describes responsibilities of the Principal Deputy
Under Secretary of Defense for Personnel and Readiness. The Principal Deputy
must maintain and have available to installation commanders the current master
file of all individual agents, dealers, and companies who had their privileges
withdrawn at any DoD installation. In addition, the Principal Deputy must
maintain a list of all State Insurance Commissioners’ points of contact for DoD
matters and forward this list to the Services. The Instruction also outlines
prohibited practices for soliciting on DoD installations. See Appendix B.

Military Services’ Policies. All of the Military Services have or are in the
process of updating personal commercial solicitation policies to implement the
changes to DoD Instruction 1344.07. The Army published revised policies in
Army Regulation 210-7, “Personal Commercial Solicitation on Army
Installations,” on October 18, 2007. The Air Force published Instruction
DoDI1344.07_AFI36-2917, “Personal Commercial Solicitation on Air Force
Installations,” on November 7, 2007, implementing and extending the DoD
Instruction. The Department of the Navy’s updated policy was still in draft. All
of the Services’ policies include requirements from the DoD Instruction and
provide additional Service-specific requirements for personal commercial
solicitations on the installations. For example, the Army guidance requires that
solicitors perform a suitability assessment before recommending securities to
soldiers. The draft Department of Navy guidance, when implemented, will
provide additional safeguards for Department of the Navy personnel. One of the
safeguards states that the installation commander shall presume that any life
insurance product that has high premiums or a side fund, or that does not meet the
standards established in the NAIC “Military Sales Practices Model Regulation”
and any standards adopted by the State in which the installation are located is
inappropriate for the needs of his military community. The Air Force guidance
includes guidelines specific to solicitation by academic institutions.

Installation Policies. The Army and Marine Corps installations we visited had
published supplemental guidance reiterating the guidance found in the DoD
Instruction 1344.07 and the Services’ guidance. Fort Benning had issued Policy
Memorandum 210-7-5, dated 24 January 2005. This policy memorandum largely
restates the Army Regulation, with an added requirement that bans solicitation in
training units or areas. The Fort Jackson Supplement 1 to AR 210-7, dated
June 1, 2005, expands and details the responsibilities outlined in AR 210-7. It also
states in subparagraph (30) that the Commander may deny an application for a permit
or suspend any previously issued permits to an agent or company that has been barred
or whose permit to solicit has been withdrawn at any military installation. Marine
Base Order 1741.1G for Camp Lejeune restates the guidance found in the DoD
Instruction 1344.07 and the Navy Instruction SECNAVINST 1740.2D


                                     7
     “Solicitation and the Conduct of Personal Commercial Affairs on Department of the
     Navy Installations.” The Air Force bases visited used DoD Instruction 1344.07
     without supplementing it.


Personal Financial Training
     The Services are providing some personal financial training, but could improve
     their consumer awareness training to alert Service members of unscrupulous
     practices and inappropriate products before Service members arrive at their first
     duty station.

     Five Army, Air Force, and Marine Corps bases we visited provide 2 to 16 hours
     of personal financial education from the time recruits begin training until they are
     assigned to their first duty station. This personal financial education covers a
     basic understanding of pay and entitlements, banking and allotments, and
     checkbook management. However, the bases did not provide adequate consumer
     awareness training to military Service members prior to arriving at the first duty
     station on sales practices that have been declared false, misleading, deceptive, or
     unfair for life insurance products considered inappropriate for most junior enlisted
     Service members.

     While there is consumer information available to Service members through the
     DoD and NAIC Web sites, the Military Services must ensure the current financial
     education programs provide appropriate consumer awareness education to junior
     enlisted Service members to enable them to identify inappropriate life insurance
     practices and products.


Off-Base Solicitations and Allotment Practices
     Commercial solicitations of Service members for inappropriate life insurance
     products are taking place off base, and the junior enlisted Service members’ use
     of the MyPay system to process insurance allotments circumvents military
     protection safeguards established by DoD Instruction 1344.07.

     Off-Base Solicitations. All of the safeguards established by DoD
     Instruction 1344.07 pertain to commercial solicitations on DoD installations.
     Two of the five installations we visited had instances of off-base solicitations or
     sales. Soliciting off base circumvents many of the safeguards established by DoD
     for on-base solicitations of life insurance products to junior enlisted Service
     members. GAO Report 06-23, “Actions Needed to Better Protect Military
     Members,” in November 2005, stated that insurance companies that market
     primarily to military members have been frequently accused of using
     inappropriate sales practices by regulators, DoD, and others. These companies
     were accused of misrepresenting the products as investments or savings funds.

     Our review at Camp Lejeune and Fort Jackson confirmed that these claims and
     practices are ongoing, with the only difference being the actual solicitation or sale
     takes place off the military installation. At Camp Lejeune, command personnel
     were aware of the inappropriate solicitation and sale of life insurance products to


                                           8
young and financially inexperienced Service members. Their Marines were being
approached off base in the nearby commercial district by a company selling life
insurance with a side savings feature. They were being enticed into listening to
the sales approach with the promise of a free pizza or dinner, and then an attempt
was made to sell them questionable life insurance.

The Staff Judge Advocate / Legal Assistance office at Camp Lejeune had
conducted an investigation and reported the agency to the Armed Forces
Disciplinary Control Board (AFDCB), a committee that decides whether a
business will be placed off-limits to Marines. The Staff Judge Advocate office
presented a case to ban this agency. The case identified an insurance agency that
was approaching Marines at the nearby mall or local restaurants. Statements were
taken by the Staff Judge Advocate office from single Marines about some of the
deceptive practices, including offering free food, disseminating misinformation
concerning SGLI, and extolling the product as an investment. The company
maintained that its product was appropriate for junior Service members.
However, the command’s financial specialist advised that the product was
inappropriate for young, single Marines who already have $400,000 SGLI and
another $100,000 death gratuity. These inappropriate life insurance products,
with an accumulation fund, cost significantly more than other life insurance
coverage available to the Service members. At the March 14, 2007, hearing the
AFDCB voted against placing the company on the off-limits list. No reason was
given in the report, but subsequent to the hearing the Staff Judge Advocate office
met with the AFDCB president to get an understanding of the Board’s thinking.
The Board was concerned about putting the agency off-limits because the
company was selling a lawful product.

Although the ruling was not favorable, at the time of our visit, the Staff Judge
Advocate Office had not contacted the North Carolina State Department of
Insurance to report the questionable life insurance sales practices occurring near
the installation. Since the State is the regulatory authority for insurance, problems
associated with life insurance should be raised to the State Department of
Insurance for action. Subsequent to our visit and recommendation, the Staff
Judge Advocate office contacted the North Carolina State Department of
Insurance, and officials from both have met a couple of times to discuss the
situation in the Camp Lejeune area, share information, and establish closer
relations.

In addition, in June 2007, the Camp Lejeune legal assistance office sent a
consumer advisory to Marine Corps leaders responsible for training junior
enlisted Marines. The Marine Corps leaders were to further disseminate the
information on sales approaches as they deem appropriate.

Allotments and MyPay. Service members, facilitated by insurance agents, are
using the MyPay system to initiate allotments for inappropriate life insurance.
Service members access the system using computers at the financial planning
agency or other off-post locations. MyPay is an automated system containing
personally identifiable information and is operated by the Defense Finance and
Accounting Service. Allotments made through the MyPay system can be sent
only to checking or savings accounts. The use of the MyPay system for life
insurance allotments circumvents historical safeguards, such as the 7-day
cooling-off period for financial counseling, established for on-base solicitations.



                                      9
     Past GAO reviews identified irregular activities in submitting pay allotment forms
     to finance offices that process pay transactions to the Defense Finance and
     Accounting Service. The Service member would fill out the allotment form that
     authorized the receiving banking institution to withdraw the funds to pay the
     insurance premium. To provide safeguards for junior enlisted Service members,
     the DoD Instruction 1344.07 requires that at least 7 days shall elapse for
     counseling between the signing of a life insurance application and the certification
     of an allotment for personnel in pay grades E-4 and below. Our review found that
     when the Service members sign up for life insurance at off-post locations, the
     insurance allotments are processed through the MyPay system to a banking
     institution without completing an allotment form. This can be done anywhere that
     a computer terminal can be connected to the Internet, such as at an insurance sales
     office. Starting the allotment through MyPay bypasses the 7-day cooling-off
     period established in DoD Instruction 1344.07. In addition, the DoD Instruction
     provides for the installation commander to deny, suspend, or withdraw permission
     for a company and its agents to conduct commercial activities on base for various
     causes. One such cause is the possession of, and any attempt to obtain supplies of,
     direct deposit forms or any other form or device used by Military Departments to
     direct a Service member’s pay to a third party, or possession or use of facsimiles
     thereof. This includes using or assisting in using a Service member’s MyPay
     account or other similar Internet medium for the purpose of establishing a direct
     deposit for the purchase of insurance or other investment product.


On-Base Solicitations and Their Oversight
     There have been few requests in the past year from insurance or financial service
     companies to sell their products on military installations we visited.

     Requests To Solicit. At Lackland Air Force Base and Marine Corps Base Camp
     Lejeune, there were no requests from insurance or financial services companies to
     sell their products on the installations. Fort Benning received five requests, Fort
     Jackson two, and Keesler Air Force Base had one. All the installations that had
     requests checked to see if life insurance agents had State licenses to sell their
     products. All requestors have to certify that they will abide by and fully comply
     with the guidance, either the DoD Instruction 1344.07 or the Service regulation
     that supplements the DoD Instruction. The agents and companies that were
     approved for permits to solicit on base were not listed on the Commanders Page
     as having their rights to any installations suspended.

     Oversight of Commercial Solicitations. At Fort Jackson we found minimal
     oversight of commercial solicitations once the permits were approved. Fort
     Jackson has conducted three command investigations regarding Commercial
     Solicitation since 2001. The most recent one was initiated in August 2006 and
     completed in October 2006. This investigation was initiated when the Defense
     Pay Office at Fort Jackson reported that in May and June 2006 it found numerous
     allotment forms from different soldiers being directed to the same bank account,
     suggesting the solicitation of a mass or captive audience. On August 14, 2006,
     the Chief of Staff at Fort Jackson initiated an investigation on adherence to Army
     Regulation 210-7,“Commercial Solicitations on Army Installations,”
     April 22, 1986. The focus of the review was two insurance agents. At the time of
     the investigation, neither agent had permission to solicit insurance on base since


                                         10
    their permits had expired in April 2006; however, according to the latest
    investigation, these agents were involved in soliciting on base. The solicitors
    were agents for an insurance company that is currently listed on the Commanders
    Page as off-limits indefinitely to all Fort Benning soldiers for improper
    solicitation practices including soliciting soldiers in training units, in mass and
    captive audiences, and while soldiers were on duty.

    The investigators issued a report on October 6, 2006, identifying multiple
    violations. These violations included insurance agents who did not have
    solicitation permits for Fort Jackson, initial contact or marketing done in
    prohibited areas and facilitated by higher ranking Service members who received
    benefits for their actions, and unauthorized possession of DD Form 2558,
    “Authorization to Start, Stop or Change an Allotment.” The initial contact took
    place on the post, but the sales presentation and the purchase of the life insurance
    took place off post. The investigation recommended that the two agents be barred
    from Ft. Jackson for 2 years. However, even though there have been three
    command investigations regarding commercial solicitation in the recent past at
    Fort Jackson, officials failed to take action against the insurance agents for an
    additional 9 months. After our visit in June 2007, the Commanding General,
    United States Army Training Center and Fort Jackson barred the agents from
    entering Fort Jackson for 5 years effective July 11, 2007, 9 months after the report
    that recommended they be barred for violation of Army Regulation 210-7 and its
    Fort Jackson supplement. When Ft. Jackson did report, they posted the name of
    only one agent to the Commanders Page as being barred from Ft. Jackson. During
    the 9 months between the issuance of the Fort Jackson investigation and the
    agents’ being barred, one of the agents was allowed to be a sponsor at the Annual
    Retiree Appreciation Day in April 2007. Not banning the agent promptly allowed
    the agent to appear credible as an official sponsor of the event. The delays in
    taking prompt action to ban both agents for multiple violations of commercial
    solicitation policy on Fort Jackson increased the risk to junior enlisted members
    that they would be solicited and would purchase inappropriate life insurance.

    In addition, the Fort Jackson Inspector General conducted a review in
    January 2007 that determined that most senior leaders were familiar with
    commercial solicitation and private organizations; however, many junior leaders
    and enlisted training instructors were not. The report “Result of Fort Jackson
    Inspector General Assessment on Commercial Solicitation and Private
    Organizations,” March 2007, made several recommendations to educate junior
    leaders and enlisted training instructors on commercial solicitation rules.


Coordination With State Insurance Regulators
    Installations did not notify the State Insurance Commissioner’s office when they
    identified inappropriate insurance solicitations and activities.

    Government Accountability Office Report 06-23, “Actions Needed to Better
    Protect Military Members,” November 2005, states that a lack of routine
    complaint-sharing between financial regulators and DoD was one reason that
    regulators did not identify problematic sales of financial products to Service
    members before such issues were raised in press accounts. The States are the
    primary regulators of insurance companies and agents. The current DoD


                                        11
    Instruction addresses personal commercial solicitation activities on the
    installation and requires installation commanders to report concerns or complaints
    involving the quality or suitability of financial products, as well as concerns or
    complaints involving marketing methods used to sell these products, to the
    appropriate State and Federal regulatory authorities. Also, installation
    commanders shall report any suspension or withdrawal of insurance or securities
    products solicitation privileges to the appropriate State or Federal regulatory
    authorities.

    Our review showed that reporting inappropriate activity is still a problem.
    Neither Fort Jackson nor Camp Lejeune had contacted the appropriate State
    insurance commissioner at the time of our visit to report inappropriate insurance
    sales to Service members. Although officials at Fort Jackson and Camp Lejeune
    had taken some actions against the insurance agencies, they did not contact the
    appropriate insurance regulators. Fort Jackson did not report the agents and their
    violations to the South Carolina State Insurance Office after suspending their
    solicitation privileges in accordance with section 6.5.5 of DoD
    Instruction 1344.07, “Personal Commercial Solicitation on DoD Installations,”
    March 30, 2006: “Installation commanders shall report any suspension or
    withdrawal of insurance or securities products solicitation privileges to the
    appropriate State or Federal regulatory authorities.” DoD needs to reemphasize
    policy that requires installation personnel to notify State insurance offices when
    they learn of inappropriate insurance solicitations and activities occurring on post.
    In addition, DoD needs to establish policy stating that inappropriate life insurance
    sales occurring off the installation should be reported to the State insurance
    commissioners. Installation officials must work with State insurance
    commissioners to protect junior enlisted Service members from continued
    solicitation by insurance agents selling inappropriate life insurance products. The
    insurance commissioner can obtain refunds for Service members, as well as take
    disciplinary action against complicit companies, agencies, and agents.


Conclusion
    Public Law 109-290 and the revised DoD policy provide safeguards and promote
    the welfare of DoD personnel as consumers by setting forth a uniform approach to
    the conduct of all personal commercial solicitation and sales by insurance dealers
    and their agents on military bases. These safeguards, however, are being
    circumvented through off-post commercial solicitation of junior enlisted Service
    members and through the processing of allotments using the MyPay system
    instead of the allotment form. To combat the new tactics being used by some
    insurance companies, DoD installations need to contact their State insurance
    commissioner’s office when any inappropriate insurance sales are discovered,
    whether on the installation or off the installation. DoD needs to reemphasize to
    the military installations that they should use the Commanders Page for
    individuals, agencies, or companies who have been banned. Also, additional
    consumer awareness education should be made available that apprises Service
    members of inappropriate practices and products.




                                         12
Management Comments on the Finding and Audit Response
    Management Comments. The Acting Assistant Secretary of the Navy
    (Manpower and Reserve Affairs) recommended that we make minor editorial
    changes to the report for clarity and accuracy.

    Audit Response. We agreed and made the recommended changes. See the full
    text of the comments in the Management Comments section.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness:

           a. Develop standards for additional consumer awareness education to
    junior enlisted Service members to identify inappropriate life insurance
    practices and products.

    Management Comments. The Deputy Under Secretary of Defense for Military
    Community and Family Policy, responding on behalf of the Under Secretary of
    Defense for Personnel and Readiness, concurred. She stated that her office will
    work with the appropriate offices to incorporate material that will help Service
    members identify inappropriate life insurance practices and products.
    Additionally, she indicated that a wealth of material is available online at Service
    portals and on the web site of the National Association of Insurance
    Commissioners.

    Audit Response. The Deputy Under Secretary of Defense for Military
    Community and Family Policy comments are responsive. The proposed actions
    satisfy the intent of the recommendation.

            b. Issue policy that requires installations to report both on-base
    violations of DoD Instruction 1344.07 and off-base insurance products and
    sales solicitation practices directed at junior enlisted Service members and
    considered inappropriate to the appropriate State insurance commissioner’s
    office.

    Management Comments. The Deputy Under Secretary of Defense for Military
    Community and Family Policy, responding on behalf of the Under Secretary of
    Defense for Personnel and Readiness, partially concurred. She cited current policy
    directing Armed Forces Disciplinary Control Boards to consider all applicable
    information and take action the Boards deem appropriate. She also stated that any
    violations that occur off-base are being handled appropriately by the Boards and that
    the State commissioners have access to this information, which is maintained online.
    In addition, the Deputy stated that the Defense Department will reiterate the need for
    the Services to ensure the State insurance commissioners are informed of
    inappropriate practices targeting military personnel off-base as well as including this
    information in the quarterly Personal Commercial Solicitation Report.



                                         13
Audit Response. The Deputy Under Secretary of Defense for Military
Community and Family Policy comments are responsive. We agree the current
policy directs the Armed Forces Disciplinary Control Boards to take action as
they deem necessary but we found that one installation Board was reluctant to ban
a company selling a product that was not illegal. However, the proposed actions
satisfy the intent of the recommendation.

Unsolicited Comments. While not required to comment, the Air Force Assistant
Deputy Chief of Staff for Manpower and Personnel stated that he will coordinate
the Air Force’s current training initiative with the Under Secretary of Defense for
Personnel and Readiness and will support and comply with the Under Secretary’s
direction.

A.2. We recommend that the Commandant of the Marine Corps, the
Commanding General of the U.S. Army Training and Doctrine Command,
and the Air Force Commander of the Air Education and Training Command
ensure the current financial educational programs provided to junior
enlisted Service members include appropriate consumer awareness
education to enable them to identify inappropriate life insurance practices
and products.

Navy Comments. The Acting Assistant Secretary of the Navy (Manpower and
Reserve Affairs) responded for the Marine Corps and concurred. She stated that
the Marine Corps Personal Financial Management Program currently offers a
standardized training curriculum that includes a module titled “Your Insurance
Needs.”

Audit Response. The Navy comments are responsive. The Financial
Management Program satisfies the intent of the recommendation.

Air Force Comments. The Air Force Assistant Deputy Chief of Staff,
Manpower and Personnel concurred, stating that the instructors for basic training
are educating trainees on unscrupulous insurance sales practices under the current
lesson plan and that these practices will be formally included in the new Financial
Management Lesson (and Basic Trainee Study Guide), which is part of the
expanded 8.5-week program beginning in November 2008. The lesson will
discuss abusive insurance and investment practices and safeguards that exist to
help our Service members. In addition, the Assistant Deputy Chief of Staff,
Manpower and Personnel stated that the Technical Training schools have an
Airmen and Family Readiness Center with a Personal Financial Manager who has
for years included in the personal financial management lessons information on
unscrupulous sales tactics as it related to insurance and securities. Also, Air
Education and Training Command periodically reviews lesson plans to ensure
they remain consistent with Air Force and DoD guidance.

Audit Response. The Air Force comments are responsive. The actions taken and
the proposed actions satisfy the intent of the recommendation.

Management Comments Required. Because the Commanding General, U.S.
Army Training and Doctrine Command did not respond to the draft audit report,
we request that he provide comments on the final report by May 7, 2008.




                                    14
           B. Inappropriate Life Insurance
           Solicitations at Naval Station Great Lakes
           The Navy must take additional steps in protecting junior enlisted naval
           personnel at NSGL from the sale of inappropriate life insurance products
           and dishonest and predatory sales practices. Problems identified in 2005
           and 2006 with inappropriate sales of life insurance products continue
           because NSGL did not provide adequate oversight of solicitation permits
           for a courier service, alert new sailors to potential inappropriate insurance
           practices and products, instruct them to control access to their military
           identification and their MyPay accounts, or communicate with other naval
           offices concerning inappropriate insurance solicitation. As a result, junior
           enlisted personnel were transported off post to the financial planning
           agency and persuaded to sign up for supplemental life insurance products
           that are considered inappropriate. In addition, unauthorized access by the
           financial planning agency employees to MyPay, a DoD information
           system, subjects the information contained on the system to undue risk of
           alteration and compromise. Junior enlisted sailors could be hurt
           financially by having allotments taken from their pay for inappropriate life
           insurance products.


Department of Defense Policy
    DoD Instruction 1344.07,“Personal Commercial Solicitation on DoD Installations,”
    March 30, 2006, is the primary guidance on policy and procedures for personal
    commercial solicitations on DoD Installations. It outlines a uniform approach for
    dealers and agents to conduct personal commercial solicitation and sales on base.
    The Instruction defines personal commercial solicitation as personal contact, to
    include meetings, meals, or telecommunications contact, for the purpose of
    seeking private business or trade.

    DoD Instruction 1344.07 states that the solicitor must be duly licensed to sell the
    product, have an appointment with the individual to be solicited, and must
    provide the personal commercial solicitation evaluation form and a written
    reminder that free legal advice is available from the office of the Staff Judge
    Advocate. The Instruction requires installation commanders to report concerns or
    complaints involving the quality or suitability of financial products, as well as
    concerns or complaints involving marketing methods used to sell these products,
    to the appropriate State and Federal regulatory authorities. The Instruction states
    that for personnel in pay grades E-4 and below, in order to allow time to obtain
    financial counseling, at least 7 calendar days shall elapse between the signing of a
    life insurance application and the certification of a military pay allotment for any
    supplemental commercial life insurance. The Instruction also requires the
    installation finance officers to monitor and enforce the 7-day cooling-off period
    for allotments for military personnel in pay grades E-4 and below. The
    Instruction requires the heads of DoD Components to ensure implementation of
    the instruction and compliance with its provisions.




                                         15
Naval Station Great Lakes
    NSGL is home to the Naval Service Training Command. It is the largest training
    center in the Navy. Also located at NSGL are three region commands, four
    additional training commands, six support commands, and two tenants. One of
    the training commands is the Recruit Training Command where newly enlisted
    Navy recruits report and train for 8 weeks. The training includes classes on
    personal development, physical fitness, seamanship, and other basic sailor skills.
    After graduation, sailors transfer to the Training Support Center at NSGL, which
    is part of the Navy Education and Training Command and is where they receive
    advanced training in their assigned career field.


Commercial Solicitation Problems in 2005 and 2006
    Predatory sales practices by purveyors of life insurance were reported to the Navy
    in 2005 and 2006.

    GAO Cited Problems at NSGL in 2005. GAO Report 06-23, “Actions Needed
    to Better Protect Military Members,” November 2005, states that the legal
    advisors at Great Lakes Naval Training Center reported not having received many
    complaints from Service members. The legal advisor reasoned this was because
    sailors were often being solicited shortly before they transferred to other
    installations. The legal advisor showed GAO documentation related to five
    complaints that were made by Service members between January and June 2005
    and pertained to insurance products. Navy finance office personnel at NSGL
    informed GAO that they had become concerned about the sale of insurance to
    Service members because more than 100 allotments occurred between June and
    September 2004. The allotments were pay deductions for products purchased by
    Service personnel from three different insurance companies. GAO recommended
    that the Secretary of Defense revise the DoD solicitation policy to require that
    information on Service members’ complaints be provided to State and Federal
    regulators. GAO also recommended that the Secretary of Defense include in the
    personal financial training information and material that explains how and to
    whom Service members should raise concerns involving potentially inappropriate
    sales of financial products. DoD officials concurred with both recommendations.

    Also in 2005, staff in the Office of the Under Secretary of Defense for Personnel
    and Readiness expressed concerns in e-mails to those in the Office of the
    Assistant Secretary of the Navy (Manpower & Reserve Affairs) about actions
    taken at NSGL to address problems with life insurance products and sales
    practices. At that time, an official from the office of the Assistant Secretary said
    NSGL had taken all the actions that it could and would be contacting the Illinois
    Insurance Department. However, the Office of the Under Secretary of Defense
    for Personnel and Readiness believed there was ample statutory and policy
    authority for NSGL to do much more to address the problems with life insurance
    products and sales practices.

    Naval Legal Service Office (NLSO) identified Problems in 2006. In
    September 2006, the NLSO at NSGL, a detachment of the NLSO, North Central
    located in the Washington Navy Yard, Washington, D.C., obtained affidavits


                                         16
     from sailors regarding deceptive investment and insurance sales practices and
     payment of fees for referring sailors to a financial planning agency. The NLSO
     provides legal assistance and counseling to Service members requesting help in
     legal matters such as wills, estate planning, consumer affairs, and other personal
     legal problems. Some of the affidavits explained how an investment company
     approached sailors and obtained their military identification information. NLSO
     sent the affidavits to the Region Legal Service Office (RLSO) at NSGL. RLSO,
     part of the Naval Legal Service Command, provides services such as court martial
     prosecution and legal advice and support to the Commander, Navy Region
     Midwest, at NSGL. On September 11, 2006, NLSO suggested to RLSO in an e-
     mail that RLSO should prepare a plan to ensure that sailors are alerted to illegal
     business practices. NLSO suggested quick response, but there is no record of any
     further action. The following month in an e-mail dated October 20, 2006, the
     Training Support Center at NSGL notified the Naval Criminal Investigative
     Service of the ongoing unscrupulous sales practices including taking control of
     the sailors’ MyPay accounts, but again no action was taken to remedy the
     problems.


Solicitation Problems Continue in 2007
     During our visit to NSGL, we observed that problems continued. These included
     using commercial solicitation permits to come on base and transport sailors to a
     financial planning agency office. We found there was no oversight of permit
     holders’ activities after solicitation permits are issued.

     Commercial Solicitation Permit Requests for 2007. RLSO manages the permit
     application process for commercial solicitation on NSGL. To solicit on base at
     NSGL, commercial solicitors must apply for a permit. The application they
     submit includes personal information on the individuals performing solicitation,
     the purpose of the solicitation, the type of business, supervisor’s name and agent’s
     name, and applicable State or Federal license. Applicants must agree to comply
     with DoD and Navy Instructions and certify that they comply with the Federal
     and State consumer safety and protection standards. On receiving the application,
     an official from the RLSO informed us that RLSO personnel conduct a
     background check, validate licenses with the Illinois Division of Insurance if
     soliciting insurance, and notify base security. Once a solicitor’s application is
     approved, base security issues a vehicle permit for access to the base. The RLSO
     official informed us RLSO does not oversee the activities of the individuals who
     are granted permission to solicit unless it receives complaints.

     Officials provided documentation showing that there were 14 current permits as
     of July 10, 2007. The permits cover a 12-month period and must be renewed
     when they expire. Four of the permits issued were for document delivery and
     courier service, four were for financial services or life insurance, and six were for
     nonfinancial services. Despite the complaints against one particular insurance
     agency in 2006, RLSO issued four permits to this company in 2007 to act as a
     document and courier service.

     Solicitation Practices. After graduating from 8 weeks of basic training at the
     Recruit Training Command, new recruits are permitted leave during the interim
     weekend before reporting to the Training Support Center Great Lakes for the


                                          17
second phase in their training process. A place that recruits frequently visit is the
local mall in Gurnee, Illinois. This is where recruits are initially contacted by
financial companies.

An official at NSGL Personnel Support Activity Detachment (PSAD) provided
details of recruits’ experiences with financial companies as told by the recruits.
While at the mall, the male sailors were approached by an “attractive girl.” She
requested they complete a questionnaire on financial services; the questionnaire
asked their name and contact information. Then they received a call from the
company representative telling them they had won a prize. To collect the prize,
the sailors had to make an appointment to be picked up in the barracks area and
transported to the financial planning agency’s office off base. The sailors were
not aware that they would be subjected to an insurance or financial planning sales
presentation in order to collect their prizes. We interviewed 11 recruits who had
similar experiences with a financial planning agency.

According to the PSAD employee, the sailors stated that the vans that transported
them from the barracks area to the sales office were government vehicles that had
the installation vehicle decals. However, the RLSO official stated the vans were
not government owned; they were vans provided by the same agency that was
permitted on base to provide courier service. The financial planning agency
admitted they used the courier service to transport the sailors to the agency’s off-
base office.

Use of Common Access Card and MyPay. According to the PSAD employee,
some sailors had gone to the PSAD office to cancel allotments for life insurance.
These sailors described their experiences with a financial planning agency. When
the sailors arrived at the company sales office, they were given a sales
presentation to purchase a financial product touted as an investment and life
insurance. The sailors were told that they needed to present their military
identification (common access card [CAC]). The agency cited a Homeland
Security requirement to present ID for banking transactions. The CAC has the
sailor’s Social Security number and date of birth on the back. The CAC is a DoD
smartcard issued as standard identification for active-duty military personnel,
selected reserve personnel, DoD civilian employees, and eligible DoD contractor
personnel. Some sailors stated that the agency’s sales representatives used the
CAC to gain access to the sailors’ MyPay payroll account and start an automatic
payroll allotment. We interviewed sailors who stated that they agreed to an
allotment amount of $100 only to find later that $250 was actually being taken out
of their pay, and some sailors who stated they did not even know what company
they were dealing with. In addition, three sailors stated that the sales
representatives told them they had a contract with the military to provide these
products or were endorsed by the military, when in fact the agency only has
commercial solicitation permits with NSGL to provide document delivery,
pickups, and courier service.

The reported access by the financial planning agency using the CAC could place
DoD systems and personnel identification information at risk. In addition, section
1030, title 18, United States Code, “Fraud and Related Activity in Connection
with Computers,” states that whoever intentionally accesses a computer without
authorization or exceeds authorized access and thereby obtains any information
contained in financial records, information from any department or agency, or
information from any protected computer is subject to a fine or imprisonment.
Exceeding authorized access means to access a computer and to obtain or alter

                                     18
     information in the computer that the accesser is not entitled to obtain or alter. In
     addition, section 701, title 18, United States Code, “Official Badges,
     Identification Cards, Other Insignia,” states that whoever manufactures, sells, or
     possesses any badge, identification card, or other insignia or makes any
     photograph of such shall be subject to a fine or imprisonment.

     The Navy and the NSGL must now establish adequate controls to oversee the
     actions of those provided permits to solicit, and to monitor access to the base of
     persons affiliated with financial products to ensure these persons are meeting the
     requirements under DoD Instruction 1344.07. In addition, the Navy and NSGL
     must emphasize to the sailors not to give anyone access to their CAC or MyPay
     account.


Personal Financial Training
     Navy basic training did not alert sailors to inappropriate insurance practices or
     products.

     Recruit Training Command. The Recruit Training Command at NSGL did not
     alert sailors to potential inappropriate insurance practices and products and did
     not adequately instruct them to control access to their military identification and
     their MyPay accounts.

     Recruit Training Command personnel stated that the recruit training or boot camp
     for NSGL is in a closed section of the base. Recruits do not have access to
     computers or cell phones during this 8-week period and are not allowed off the
     installation. During boot camp, the recruits receive a total of 6.5 hours of
     financial training. The training covers military pay and benefits, direct deposit,
     the Montgomery GI Bill, and the Thrift Savings Plan.

     This training does not specifically address predatory lenders, financial scams or
     deceptive sales practices. After graduation from boot camp, recruits move to the
     next level of training at the Training Support Center. As mentioned earlier,
     before beginning school, the sailors receive liberty. Off-base, their lack of
     exposure to suspect practices leaves new sailors vulnerable to such practices.

     After receiving training at the Recruit Training Command, the sailors move on to
     the Training Support Center. While there, they are provided an additional
     16 hours of personal financial training. This training addresses insurance sales
     tactics, predatory lending practices, and the DoD 7-day cooling-off period for
     allotments.

     Although the Training Support Center seems to provide the type of training
     needed to be aware of questionable insurance practices, the Recruit Training
     Command did not have those lessons included in its training curriculum. The
     Commanding Officer, Recruit Training Command, must take action to establish
     training on consumer awareness for recruits on deceptive insurance practices and
     products and emphasize the resources available on the installation.




                                          19
Communication Among Naval Offices
    Communication problems among offices at different commands and inaction at
    NSGL allowed ongoing problems with on- and off-base commercial solicitations
    of new recruits to continue.

    Legal Office Communications and Action. As mentioned earlier, in 2006 the
    NLSO sent affidavits to RLSO that explained the process of a company van
    coming on base and picking up the sailors outside the Base Enlisted Quarters.
    The affidavits also explained the payments given to sailors for recruiting other
    sailors to be picked up to attend these sales presentations, as well as how the
    company accessed and used the MyPay system to start allotments. On
    September 11, 2006, NLSO responded in an e-mail suggesting RLSO prepare a
    plan to inform sailors of inappropriate sales practices. NLSO suggested a quick
    response. However, no support was provided that action was taken. The
    following month in an e-mail dated October 20, 2006, the Training Support
    Center at NSGL notified the Naval Criminal Investigative Service of the ongoing
    deceptive sales practices and unauthorized access of the sailors’ MyPay accounts,
    and again no action was taken to remedy the problems.

    Personnel and Legal Offices. Although the PSAD payroll office was helping
    new recruits stop unwanted insurance allotments, the sailors were frustrated in
    how to obtain refunds from the financial planning agency for money already paid.
    NLSO offered to write letters to cancel the insurance but only when requested.
    The Command at NSGL did not file complaints with the Illinois Insurance
    Commissioner as required by DoD Instruction 1344.07, nor did RLSO revoke the
    financial planning agency’s permits for courier service and base access, allowing
    the problem to continue.

    According to an NLSO official, throughout this period, when sailors cancelled
    their allotment at PSAD, they were referred to NLSO to cancel the policy and
    obtain a refund. These sailors informed NLSO staff that they wished to cancel
    their allotments. Officials at NLSO instructed them to go back to PSAD. After
    several requests of this nature, NLSO staff contacted PSAD officials to request
    they not send over any sailors seeking to cancel allotments, as this is not a
    function NLSO can perform. This communication appears to have been
    construed as an instruction not to send over any sailors with issues of any kind
    related to these insurance policies.

    This misunderstanding led to the two offices’ not coordinating their efforts and not
    communicating to curtail this practice, which in the end was costly to the new sailors.
    At the same time, the RLSO was still issuing permits to the agency. By issuing base
    permits to the financial planning agency, the NSGL was giving approval for
    commercial solicitors to enter the base, access that the permit holders used to imply
    to the sailors we interviewed that the installation endorsed the solicitors.

    We contacted the Illinois Department of Financial and Professional Regulation
    (Insurance Division). An official there stated that he had contacted the NSGL
    numerous times during 2005 and 2006 to obtain access to the base to offer
    assistance but had been unsuccessful. Since our visit, the Illinois Division of
    Insurance has informed us that it has started a review of the financial planning
    agency’s practices for possible action.


                                        20
    Navy officials must establish procedures at NSGL to coordinate actions on
    commercial solicitations among the appropriate offices including the RLSO;
    NLSO; Naval Criminal Investigative Service; PSAD; Training Centers; and most
    importantly, the Commander. In addition, officials must report to the Illinois
    Division of Insurance any instances of inappropriate solicitation of insurance
    products whether on post or off.


Navy Actions
    We briefed the Commander, Navy Region Midwest on the issues and problems
    we identified. At the outbrief we were told the Navy Region Midwest Chief of
    Staff opened an investigation into the financial planning agency’s solicitation of
    Navy recruits. On July 26, 2007, the AFDCB at NSGL implemented actions
    against the agency based on the results of the investigation. The permits of the
    agency employees were rescinded, and they were no longer given access to the
    base. The investigation concluded that, based on the number of sailors who have
    alleged wrongdoing on the part of the agency and the number of its employees
    who have been identified as having misled sailors, the business practices of the
    agency are adversely affecting the welfare of the military personnel in the Navy
    Region Midwest area of responsibility. On August 30, 2007, the AFDCB sent a
    letter by certified mail to the agency that addressed the findings and eight
    corrective actions the agency must take to avoid being placed on the off-limits
    list. The agency eventually agreed to the eight corrective actions and has not
    been placed off-limits to the installation personnel.

    The Recruit Training Center has developed a training and liberty weekend brief to
    incorporate inappropriate insurance products and sales activities.

    NSGL has contacted the Illinois Division of Insurance for help in obtaining
    refunds for sailors who bought unnecessary life insurance products and to have
    the financial planning agency’s practices reviewed.

    According to the Commanding Officer, NLSO, North Central, when the
    misunderstanding was discovered by NLSO through our site visit, NLSO Officer
    in Charge met with the PSAD Officer in Charge. They have since clarified that
    sailors with legal questions regarding their allotments would be referred to NLSO,
    but not sailors seeking simply to cancel allotments, because this is a function of
    PSAD. The NLSO Officer in Charge and PSAD Officer in Charge have agreed
    that, if any concern over services offered arises in the future, there will be
    improved communication between the offices to ensure services continued to be
    properly provided to sailors.


Conclusion
    There is a history of questionable sales practices and solicitations of inappropriate
    financial products being sold to sailors at the NSGL. GAO issued a report that
    states junior enlisted Service members have been sold a product that combines life
    insurance with a savings fund promising high returns. Financial regulators were



                                         21
    generally unaware of the problematic sales to military members because DoD
    personnel rarely forwarded Service member complaints to regulators.

    Through 2007 the complaints continued without any action by the Navy. This
    inaction was because of the lack of communication and inaction by some Navy
    offices at NSGL. Contributing to this was the lack of consumer awareness
    training provided to the sailors on unscrupulous practices of insurance companies
    once basic training was complete. The continued inappropriate life insurance
    sales practices at NSGL by a financial planning agency after numerous reports
    identifying these problems are unacceptable.

    The Navy and NSGL need to take steps to improve oversight of commercial
    solicitations for life insurance products offered to junior enlisted Service members
    in and around NSGL. Specifically, the Navy and NSGL need to establish
    procedures within NSGL to coordinate actions on inappropriate commercial
    solicitations. Coordination should include RLSO; NLSO; Naval Criminal
    Investigative Service; PSAD; Training Commands; and most importantly, the
    Commander. The Navy and NSGL also need to establish controls to monitor
    access to the base and activities of persons affiliated with financial products to
    ensure they are meeting the requirements under DoD Instruction 1344.07.

    The current action taken by the Navy at NSGL based on the results of our review
    is a vast improvement over what was done before. To protect the financially
    inexperienced Service members at NSGL, NSGL needs to develop procedures,
    processes, and controls to prevent these problems from occurring in the future.
    NSGL also needs to maintain contact with the Illinois Division of Insurance, the
    regulatory authority on all insurance matters. NSGL also needs to include in
    basic training proper handling and protection of the CAC. In addition, NSGL
    needs to provide consumer awareness training and update this training as needed.
    Finally, NSGL needs to develop a communication process among all Commands
    and Offices at NSGL to alert all when something inappropriate is occurring.


Recommendations, Management Comments and Audit
  Response
    B.1. We recommend that the Chief of Naval Operations ensure the current
    financial education programs provided to junior enlisted Service members
    include appropriate consumer awareness training to enable them to identify
    inappropriate life insurance practices and products.

    Management Comments. The Acting Assistant Secretary of the Navy
    (Manpower and Reserve Affairs) concurred, stating that the Navy Personal
    Financial Management Standardized Curriculum, developed, maintained, and
    distributed by the Commander, Navy Installations Command (N91), was
    completely revised in November 2007. The revision contains a Consumer
    Awareness training module focusing specifically on deterring, detecting, and
    defending against consumer fraud in the marketplace. It was designed with the
    junior sailor in mind. Although appropriate for all audiences, this interactive
    program also focuses on basic steps all consumers should take to ensure they get
    the most for their money. The new curriculum has been distributed to all Navy
    training school commands and all Navy Fleet and Family Support Centers.


                                        22
Audit Response. The Navy comments are responsive. The actions taken address
the recommendation.

B.2. We recommend that the Commander, Naval Station Great Lakes:

        a. Establish procedures at the Naval Station Great Lakes to
coordinate actions of the Region Legal Service Office, Naval Legal Service
Office, Naval Criminal Investigative Service, Personnel Support Activity
Detachment, Training Commands, and the Commander on inappropriate
commercial solicitations.

Management Comments. The Acting Assistant Secretary of the Navy
(Manpower and Reserve Affairs) concurred, stating the discussion of
inappropriate commercial solicitations and business practices has been made a
standing agenda item at the Monthly Host/Tenant Installation meeting. The
meeting is hosted by the Commanding Officer and includes representatives from
various commands on base.

Audit Response. The Navy comments are responsive. The action taken
addresses the recommendation.

      b. Communicate to the Illinois Division of Insurance any instances of
inappropriate solicitation of insurance products, whether on or off post.

Management Comments. The Acting Assistant Secretary of the Navy
(Manpower and Reserve Affairs) concurred, stating the Region Legal Service
Office Midwest contacted the Illinois Division of Insurance in August 2007
concerning the financial planning agency. Contact is ongoing, as the need arises.

Audit Response. The Navy comments are responsive. The action taken
addresses the recommendation.

       c. Establish controls to monitor access to the base of persons affiliated
with financial products to ensure they are meeting the requirements under
DoD Instruction 1344.07.

Management Comments. The Acting Assistant Secretary of the Navy
(Manpower and Reserve Affairs) concurred, stating that controls to monitor base
access by persons affiliated with financial products were formally established on
May 31, 2002, and updated on October 19, 2007. The Commanding Officer,
NSGL has determined that persons affiliated with financial products will no
longer be eligible for commercial solicitation permits. As of February 21, 2008,
NSGL has no current or outstanding commercial solicitation permits issued to
persons affiliated with financial products.

Audit Response. The Navy comments are responsive. The actions taken address
the recommendation.

B.3. We recommend that the Commanding Officer, Recruit Training
Command:

      a. Establish training to boost recruits’ awareness of both deceptive
insurance practices and financial resources available on the installation.


                                    23
       b. Enhance training on proper handling and protection of the
recruits’ Common Access Card.

Management Comments. The Acting Assistant Secretary of the Navy
(Manpower and Reserve Affairs) concurred, stating corrective actions have been
completed. The Recruit Training Command Legal Department incorporated a
Recruit Liberty Orientation Lecture in Recruit Training Command’s standard
operating procedures. Also, the Recruit Training Command Legal Department
drafted and provided more formal training to the Recruit Division Commanders
on addressing predatory lending and other deceptive sales practices in their liberty
briefs. The practices include insurance, investments, and solicitation of “MyPay”
information. The Recruit Division Commanders were able to effectively counsel
and warn their recruits about these topics prior to their first liberty weekend. On
January 23, 2008, Recruit Training Command Instruction 3000.1A, Change 3,
was approved, signed, and distributed to the command.

Audit Response. The Navy comments are responsive. The actions taken address
the recommendations.




                                    24
Appendix A. Scope and Methodology
    We conducted this performance audit from April 2007 through December 2007 in
    accordance with generally accepted government auditing standards. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and conclusions
    based on our audit objectives. We believe that the evidence obtained provides a
    reasonable basis for our findings and conclusions based on our audit objectives.

    We performed this audit as required by Public Law 109-290, “Military Personnel
    Financial Services Protection Act,” dated September 29, 2006. We reviewed the
    impact of DoD Instruction 1344.07, “Personal Commercial Solicitation on DoD
    Installations,” and the reforms included in the Public Law at the following
    installations: Fort Benning, Fort Jackson, Naval Station Great Lakes, Marine
    Corps Base Camp Lejeune, Lackland Air Force Base, and Keesler Air Force
    Base. At each location, we interviewed officials responsible for approving
    commercial solicitation permits on the installations as well as officials from the
    legal, payroll, financial counseling, and commercial sponsorship offices. We
    examined installation procedures for allowing commercial solicitors on the
    installations and reviewed documents pertaining to current and past investigations
    into unscrupulous commercial solicitation practices on the installations. We also
    reviewed financial training provided to military personnel.

    We contacted personnel at the Office of the Under Secretary of Defense for
    Personnel and Readiness; the Defense Criminal Investigative Service; U.S. Army
    Installation Management Command; Navy Installation Command; Judge Advocate
    Division, U.S. Marine Corps; Personal and Family Readiness Division, U.S.
    Marine Corps; the Office of the Secretary of the Air Force for Force Management
    and Personnel; and the Office of the Judge Advocate General, U.S. Air Force.

    We also contacted personnel at the National Association of Insurance
    Commissioners, the Office of the Georgia Insurance and Safety Fire
    Commissioner, and the Illinois Division of Insurance to determine their
    coordination with DoD and their efforts to protect military personnel from
    dishonest and predatory insurances sales practices.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    does not provide coverage of any high-risk areas.


Prior Coverage
    During the last 5 years, the GAO has issued two reports related to personal
    commercial solicitation on DoD Installations. The Office of Inspector General
    DoD has not issued any reports in the last 5 years related to personal commercial
    solicitation on DoD Installations. Unrestricted GAO reports can be accessed over
    the Internet at http://www.gao.gov/.


                                        25
GAO
  Report No. GAO-06-023, “Financial Product Sales: Actions Needed to Better
  Protect Military Members,” November 2005

  Report No. GAO-05-696, “Military Personnel: DoD Needs Better Controls Over
  Supplemental Life Insurance Solicitation and Policies Involving
  Servicemembers,” June 2005




                                    26
Appendix B. Prohibited Solicitation Practices
       Prohibited Practices Included in DoD Instruction 1344.07. DoD Instruction
       1344.07. Section 6.4, outlines the following 15 prohibited practices for soliciting
       on military installations.

   •    Solicitation of recruits, trainees, and transient personnel in a group setting or
        “mass” audience and solicitation of any DoD personnel in a “captive” audience
        where attendance is not voluntary.

   •    Making appointments with or soliciting military or DoD civilian personnel
        during their normally scheduled duty hours.

   •    Soliciting in barracks, day rooms, unit areas, transient personnel housing, or
        other areas where the installation commander has prohibited solicitation.

   •    Use of official military identification cards or DoD vehicle decals by active
        duty, retired, or reserve members of the Military Services to gain access to DoD
        installations for the purpose of soliciting. When entering the installation for the
        purpose of solicitation, solicitors with military identification cards and/or DoD
        vehicle decals must present documentation issued by the installation authorizing
        solicitation.

   •    Procuring, attempting to procure, supplying, or attempting to supply non-public
        listings of DoD personnel for purposes of commercial solicitation, except for
        releases made in accordance with DoD Directive 5400.7.

   •    Offering unfair, improper, or deceptive inducements to purchase or trade.

   •    Using promotional incentives to facilitate transactions or to eliminate
        competition.

   •    Using manipulative, deceptive, or fraudulent devices, schemes or artifices,
        including misleading advertising and sales literature. All financial products,
        which contain insurance features, must clearly explain the insurance features of
        those products.

   •    Using oral or written representations to suggest or give the appearance that the
        DoD sponsors or endorses any particular company, its agents, or the goods,
        services, and commodities it sells.

   •    DoD personnel making personal commercial solicitations or sales to DoD
        personnel who are junior in rank or grade, or to the family members of such
        personnel, except as authorized in the Joint Ethics Regulation, DoD 5500.7-R.

   •    Entering into any unauthorized or restricted area.

   •    Using any portion of installation facilities, including quarters, as a showroom or
        store for the sale of goods or services, except as specifically authorized by DoD
        Directive 1330.17 and DoD Instructions 1015.10, 1000.15, and 1330.21. This
        does not apply to normal home enterprises that comply with applicable State
        and local laws and installation rules.


                                            27
•    Soliciting door-to-door or without an appointment.

•    Unauthorized advertising of addresses or telephone numbers used in personal
     commercial solicitation activities conducted on the installation, or the use of
     official positions, titles, or organization names, for the purpose of personal
     commercial solicitation, except as authorized in DoD 5500.7-R, “Joint Ethics
     Regulation (JER),” August 30, 1993.

•    Contacting DoD personnel by calling a Government telephone, faxing to a
     Government fax machine, or by sending e-mail to a Government computer,
     unless a pre-existing relationship exists between the parties and the DoD
     member has not asked for contact to be terminated.

    NAIC Model Regulation Prohibited Practices. The NAIC model regulation
    includes the following prohibited practices:

•    submitting or processing or assisting in the submission or processing of any
     allotment form or device, including MyPay, to direct a Service member’s pay to
     a third party for the purchase of life insurance,

•    using DoD personnel in any manner as a representative or assistant in the
     solicitation or sale of life insurance to a Service member junior in rank or grade,
     or to the family members of such personnel,

•    making any false, misleading, or deceptive representation regarding the SGLI,
     or suggesting that a Service member cancel his or her SGLI,

•    using “any lead generating materials that do not clearly and conspicuously
     disclose that the recipient will be contacted by an insurance producer for the
     purpose of soliciting the purchase of life insurance,” and

•    offering or selling a life insurance product with a side fund to Service members
     in pay grades E-1 through E-4 who are enrolled in SGLI, for whom the life
     insurance with the side fund is presumed unsuitable, until a complete needs
     assessment has been completed and demonstrates that the SGLI death benefit,
     along with other military benefits, savings and investments, survivor’s income,
     and other life insurance are insufficient.




                                        28
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Commanding General, Army Training and Doctrine Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Marine Corps
Commandant of the Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                         29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Banking, Housing, and Urban Affairs
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Financial Services
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
  House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      30
Office of the Deputy Under Secretary of Defense
for Personnel and Readiness Comments




                       31
32
Department of the Navy Comments




                    33
34
35
Final Report
 Reference




Enclosure
was not
provided
with
comments.




               36
Department of the Air Force Comments




                     37
38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach
Thomas S. Bartoszek
Robert E. Schonewolf
Alexander L. McKay
Mandy L. Rush
Catherine J. Faith
John J. Collins
Carol Gallo
William O’Brien
Monica L. Noell
Allison Tarmann
